No. 20-303

 

 

IN THE

Supreme Court of the United States

UNITED STATES OF AMERICA, PETITIONER
Vv.

JOSE LUIS VAELLO-MADERO

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

BRIEF IN RESPONSE

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,563 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 9, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
